Case: 20-10550

Document: 00515824487

Page: 1

Date Filed: 04/16/2021

1-A
United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

April 16, 2021
Lyle W. Cayce
Clerk

No. 20-10550
Summary Calendar
United States of America,

Plaintiff—Appellee,
versus
Sergio Amaya-Martinez,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-362-15
Before Higginbotham, Jones, and Costa, Circuit Judges.
Per Curiam:*
Sergio Amaya-Martinez pleaded guilty to conspiracy to possess with
intent to distribute methamphetamine, in violation of 21 U.S.C. §§ 846 and
841(a)(1), (b)(1)(C). The district court sentenced Amaya-Martinez to 168
months of imprisonment and three years of supervised release. Amaya-

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 20-10550

Document: 00515824487

Page: 2

Date Filed: 04/16/2021

No. 20-10550

Martinez appeals, arguing that the district court erred in denying his request
for a mitigating role adjustment under U.S.S.G. § 3B1.2.
This court reviews preserved challenges to the district court’s
interpretation and application of the Sentencing Guidelines de novo and its
factual findings for clear error. See United States v. Rodriguez, 630 F.3d 377,
380 (5th Cir. 2011). Whether Amaya-Martinez was a minimal or minor
participant under § 3B1.2 is a factual determination that this court reviews
for clear error. United States v. Torres-Hernandez, 843 F.3d 203, 207 (5th Cir.
2016).
According to Amaya-Martinez, he “was clearly a less than average
participant” and “substantially less culpable” than his co-conspirators
Bernardo Martinez and Carlos Dominguez. See United States v. Castro, 843
F.3d 608, 613 (5th Cir. 2016). He claims that he “did not plan or organize
the [criminal] activity”; he had no decision-making authority and merely
“followed orders”; he was not the supply source or “even the middleman”;
and was “on the lower rung of the participant ladder” below his coconspirators Martinez and Dominguez.
Amaya-Martinez provides no record citations for these claims, but as
the presentence report explains, the members of the conspiracy “maintained
a fluid hierarchy that evolved over time.” Additionally, the record shows
that Amaya-Martinez actively participated in three large drug transactions.
Amaya-Martinez relies on a single case, United States v. Sotelo, 97 F.3d
782, 799 (5th Cir. 1996), for the proposition that he was entitled to at least a
two-point, minor role adjustment. He makes several comparisons between
his conspiracy-related activities and those of the defendant in Sotelo, who
received a two-point reduction for a minor role. See id. This argument is
unavailing as “the defendant’s culpability is determined only by reference to
his or her co-participants in the case at hand.” United States v. Bello-Sanchez,

2

Case: 20-10550

Document: 00515824487

Page: 3

Date Filed: 04/16/2021

No. 20-10550

872 F.3d 260, 264 (5th Cir. 2017) (internal quotation marks and citation
omitted).
Even if this court could consider a defendant’s conduct in an
unrelated case, Sotelo is of little benefit to Amaya-Martinez. In Sotelo, 97 F.3d
at 799, the propriety of the minor role reduction was not at issue on appeal,
and this court did not comment on its appropriateness. Rather, the Sotelo
court rejected the defendant’s claim that he should have received a fourpoint reduction for being a minimal (rather than a minor) participant. Id.
Because Amaya-Hernandez has failed to carry his burden of showing
that he was entitled to a mitigating role adjustment, the judgment of the
district court is AFFIRMED. See Torres-Hernandez, 843 F.3d at 207.

3

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 1 of 29 PageID 1

2-A

20-10550.13

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 2 of 29 PageID 2

20-10550.14

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 3 of 29 PageID 3

20-10550.15

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 4 of 29 PageID 4

20-10550.16

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 5 of 29 PageID 5

20-10550.17

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 6 of 29 PageID 6

20-10550.18

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 7 of 29 PageID 7

20-10550.19

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 8 of 29 PageID 8

20-10550.20

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 9 of 29 PageID 9

20-10550.21

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 10 of 29 PageID 10

20-10550.22

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 11 of 29 PageID 11

20-10550.23

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 12 of 29 PageID 12

20-10550.24

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 13 of 29 PageID 13

20-10550.25

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 14 of 29 PageID 14

20-10550.26

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 15 of 29 PageID 15

20-10550.27

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 16 of 29 PageID 16

20-10550.28

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 17 of 29 PageID 17

20-10550.29

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 18 of 29 PageID 18

20-10550.30

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 19 of 29 PageID 19

20-10550.31

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 20 of 29 PageID 20

20-10550.32

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 21 of 29 PageID 21

20-10550.33

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 22 of 29 PageID 22

20-10550.34

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 23 of 29 PageID 23

20-10550.35

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 24 of 29 PageID 24

20-10550.36

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 25 of 29 PageID 25

20-10550.37

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 26 of 29 PageID 26

20-10550.38

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 27 of 29 PageID 27

20-10550.39

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 28 of 29 PageID 28

20-10550.40

Case 4:19-cr-00362-O Document 1 Filed 10/17/19

Page 29 of 29 PageID 29

20-10550.41

Case 4:19-cr-00362-O Document 182 Filed 12/10/19

ORIGINAL

Page 1 of 8 PageID 217
CLERK Of D:STn!CT COURT
fHJRTHEf<N DISY. ot:- TX
FORT WI!~J(:~~g!VlS!W~

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXlffl9 OEC ! 0 PM I: 27
FORT WORTH DIVISION

3-A

DEPUTY CLEfH\ _ __

UNITED STATES OF AMERICA
v.

Case No.
\

JUAN RODRIGUEZ
(01)
DAVID JIMENEZ
(02)
JOHN BURGESS
(03)
LUIS MARTINEZ
(04)
RAUL VILLEGAS
(05)
PATRICKHALL
(06)
ARNOLD MARTINEZ
(07)
JACOB GUTIERREZ
(08)
LAURENTINO AGUILLON-HERNANDEZ JR. (09)
LAURENTINO AGUILLON-HERNANDEZ SR. (10)
(11)
DANIEL MURILLO
PEDRO REBULLOZA
a/k/a/ "Pedro Quezada"
(12)
MARK ASTORGA
(13)
CARLOS DOMINGUEZ
(14)
SERGIO AMAYA-MARTINEZ
(15)
FELIPE CHAVEZ
(16)
CARLOS MORA
(17)

4 ... 19CI~.:.osaaA

INFORMATION
The United States Attorney Charges:
Count One
Conspiracy to Possess with Intent to Distribute a Controlled Substance
(Violation of21 U.S.C. § 846)
Beginning in or before March 2019, and continuing until in and around September
2019, in the Fort Worth Division of the Northern District of Texas, and elsewhere,
defendants Juan Rodriguez, Laurentino Aguillon-Hernandez Jr.,

Information - Page 1
20-10550.51

Case 4:19-cr-00362-O Document 182 Filed 12/10/19

Page 2 of 8 PageID 218

Laurentino Aguillon-Hernandez Sr., and Mark Astorga, along with others !mown and
unlmown, did knowingly and intentionally combine, conspire, confederate, and agree to
engage in conduct in violation of21 U.S.C. §§ 84l(a)(l) and (b)(l)(B), namely to possess
with intent to distribute 50 grams or more of a mixture and substance containing a
detectable amount of Methamphetamine, a Schedule II controlled substance.
In violation of21 U.S.C. § 846 (21 U.S.C. §§ 841(a)(l) and (b)(l)(B)).

Information - Page 2
20-10550.52

Case 4:19-cr-00362-O Document 182 Filed 12/10/19

Page 3 of 8 PageID 219

Count Two
Conspiracy to Possess with Intent to Distribute a Controlled Substance
(Violation of21 U.S.C. § 846)
Beginning in or before March 2019, and continuing until in and around September
2019, in the Fort Worth Division of the Northern District of Texas, and elsewhere,
defendants David Jimenez, John Burgess, Luis Martinez, Raul Villegas, Patrick Hall,

Arnold Martinez, Jacob Gutierrez, Daniel Murillo, Sergio Amaya-Martinez, Felipe
Chavez, Carlos Mora, and Pedro Rebulloza, also known as Pedro Quezada, along with
others known and unknown, did knowingly and intentionally combine, conspire,
confederate, and agree to engage in conduct in violation of21 U.S.C §§ 841(a)(1) and
(b)(1)(C),namely to possess with intent to distribute a mixture and substance containing
a detectable amount of Methamphetamine, a Schedule II controlled substance.
In violation of21 U.S.C. § 846 (21 U.S.C. §§ 841(a)(1) and (b)(l)(C)).

Information - Page 3
20-10550.53

Case 4:19-cr-00362-O Document 182 Filed 12/10/19

Page 4 of 8 PageID 220

Count Three
Conspiracy to Commit Money Laundering
(Violation of 18 U.S.C. § 1956(h))
In and around August 2019, in the Fort Worth Division of the Northern District of
Texas, and elsewhere, defendant Carlos Dominguez, along with others !mown and
unknown, did knowingly and intentionally conspire and agree with others !mown and
unknown, to commit certain offenses against the United States in violation of 18 U.S.C. §
1956, to wit:
1.

To knowingly conduct and attempt to conduct a financial transaction

affecting interstate and foreign commerce, which involved the proceeds of a specified
unlawful activity, that is drug trafficking, in violation of21 U.S.C. § 846 (21 U.S.C. §
§84l(a)(l)), with the intent to promote the carrying on of specified unlawful activity,
that is drug trafficking, in violation of21 U.S.C. § 846 (21 U.S.C. § §84l(a)(l)), and that
while conducting and attempting to conduct such financial transaction knew that the
property involved in the financial transaction represented the proceeds of some form of
unlawful activity in violation of 18 U.S.C. § 1956(a)(1)(A)(i); and
2.

To lmowingly conduct and attempt to conduct financial transactions

affecting interstate and foreign commerce, which transactions involved the proceeds of a
specified unlawful activity, that is, drug trafficking, in violation of 21 U.S.C. § 846 (21
U.S.C. § §84l(a)(l)), knowing that the transactions were designed in whole or in part to
conceal and disguise the nature, location, ownership, control and source of the proceeds
of the specified unlawful activity and that while conducting and attempting to conduct

Information - Page 4
20-10550.54

Case 4:19-cr-00362-O Document 182 Filed 12/10/19

Page 5 of 8 PageID 221

such financial transactions, knew that the property involved in the financial transactions,
represented the proceeds of some form of unlawful activity in violation of 18 U.S.C. §
1956(a)(l)(B )(i).
In violation of 18 U.S. C. § 1956(h).

Information - Page 5
20-10550.55

Case 4:19-cr-00362-O Document 182 Filed 12/10/19

Page 6 of 8 PageID 222

Forfeiture Notice
21 U.S.C. § 853 and21 U.S.C. § 881(a)
Pursuant to 21 U.S.C. § 853(a), upon conviction of Count One or Count Two
offenses, the defendants, Juan Rodriguez, Laurentino Aguillon-Hernandez Jr.,

Laurentino Aguillon-Hernandez Sr., Mark Astorga, David Jimenez, John Burgess,
Luis Martinez, Raul Villegas, Patrick Hall, Arnold Martinez, Jacob Gutierrez,
Daniel Murillo, Sergio Amaya-Martinez, Felipe Chavez, Carlos Mora, and Pedro
Rebulloza, also known as Pedro Quezada, shall forfeit to the United States any property
constituting, or derived from, any proceeds the defendant obtained, directly or indirectly,
as a result of Count One or Count Two offenses, and any of the defendant's property
used, or intended to be used, in any manner or part, to commit, or to facilitate the
commission of Count One or Count Two offenses, including but not limited to the
following:

1. Approximately $23,913.00 in U.S. currency seized on or about October 23, 2019;
[sought from Juan Rodriguez concerning Count One]
2. One American Tactical Imports- ATI shotgun, Model: unknown, Cal: ZZ, SN:
0517230101005361, including any ammunition, magazines, and/or accessories
recovered with the firearm; [sought from Juan Rodriguez concerning Count One]
3. One CZ (Ceska Zbrojovka) pistol, Model: CZ75 B, CAL: 9, SN: C697635,
including any ammunition, magazines, and/or accessories recovered with the
firearm; [sought from Juan Rodriguez concerning Count One]
4. One Anderson Manufacturing rifle, Model: AM-15, CAL: Multi., SN: 17080960,
including any ammunition, magazines, and/or accessories recovered with the
firearm; [sought from Juan Rodriguez concerning Count One]
5. One Romarm/Cugir pistol, Model: Mini Draco, Cal: 762, SN: PE-1175-2018RO,
including any ammunition, magazines, and/or accessories recovered with the
fireann; [sought from Juan Rodriguez concerning Count One]

Information - Page 6
20-10550.56

Case 4:19-cr-00362-O Document 182 Filed 12/10/19

Page 7 of 8 PageID 223

6. $100.00 in U.S. Currency seized from seized on or about October 23, 2019;
[sought from Laurentino Aguillon-Hernandez Sr. concerning Count One]
7. Approximately $13,980.00 in U.S. Currency seized on or about October 23, 2019;
[sought from Daniel Murillo concerning Count Two]
8. One Zastava pistol, Model: PAP M85 PV, Cal: 223, SN: M85PV007488,
including any ammunition, magazines, and/or accessories recovered with the
fireann; [sought from Daniel Murillo concerning Count Two]
9. One Ruger pistol, Model: SR9C, Cal: 9, SN: 333-44414, including any
ammunition, magazines, and/or accessories recovered with the firearm;
[sought from Daniel Murillo concerning Count Two]
I 0. One Maverick Arms shotgun, Model: 88, Cal: 12, SN: MV11458C, including any
ammunition, magazines, and/or accessories recovered with the firearm;
[sought from Daniel Murillo concerning Count Two].
Pursuant to 21 U.S.C. § 853(p ), if any of the property described above, as a result
of any act or omission of the defendant:
a.

cannot be located upon the exercise of due diligence;

b.

has been transferred or sold to, or deposited with, a third party;

c.

has been placed beyond the jurisdiction of the court;

d.

has been substantially diminished in value; or

e.

has been commingled with other property which cannot be divided without
difficulty,

Information - Page 7
20-10550.57

Case 4:19-cr-00362-O Document 182 Filed 12/10/19

Page 8 of 8 PageID 224

the United States intends to seek forfeiture of any other property of the defendant up to
the value of the forfeitable property described above.

ERIN NEALY COX
UNI D STATES ATTORNEY

Assistant United States Attorney
Texas State Bar No. 24033206
801 Cherry Street, Suite 1700
Fort Worth, Texas 76102
Telephone: 817.252.5200
Facsimile: 817.252.5455

Information - Page 8
20-10550.58

•

Case 4:19-cr-00362-O Document 245 Filed 01/07/20

•

DlSTRICT
COURT
Page 1 of 1 U.S.
PageID
370
NORTIIER~

I>ISTR IC.T OF TEXAS

FILED

IN TilE UNITED STATES DISTRICT CO
FOR TilE NORTHERN DISTRICT OF TE
FORT WORTH DIVISION

T
S

4-A

JAN - 7 2020

CLERK, U.S. DISTRICT COURT

By-~=----­
lkputy

UNITED STATES OF AMERICA
v.

Criminal No. 4: 19-CR-362-A

SERGIO AMAYA-MARTINEZ (15)
WAIVER OF INDICTMENT
I, Sergio Amaya-Martinez, the above named defendant, who is accused in the
Information with the felony offense of Conspiracy to Possess with Intent to Distribute, in
\

violation of21 U.S.C. § 846, being advised of the nature of the charges, the proposed
Information, and of my rights, hereby waive prosecution by Indictment and consent that
the proceeding may be by Information rather than by Indictment.

__..
Signed this _:)__ day of

JA-~

,2020.

SERGIO AMAYA-MARTINEZ
Defendant
Affirmed in open Court this

_j_ day of _

__;"'c:F=-:....----""":........>j,p"""------'

2020.

20-10550.64

•

Case 4:19-cr-00362-O Document 244 Filed 01/07/20

ORIG1NAL

•

U . . DL365~
LJ
Page 1 of NORTHERN
5 PageID
DISTRICT OF TEXA

IN THE UNITED STATES DISTRICT COURT
FOR TilE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION

5-A
[~~~~~

CLERK~ U.S-.Dl STH.fCt COURT .

By _ _""'l':'":'~---

,.,q"i''

UNITED STATES OF AMERICA

v.
SERGIO AMAYA-MARTINEZ

(~

NO.

Ll :JCf-CR- 3Ca2-A

PLEA AGREEMENT \lU!iil 'YAIYKR: Qf \cRPE A I

0

Sergio Amaya-Martinez ("Defendant"), J Steven Bush, Defendant's attorney, and
the United States of America ("Government"), agree as follows:
1.

2.

Rights of Defendant: Defendant understands that he has the right
a.

to plead not guilty;

b.

to have a trial by jury;

c.

to have his guilt proven beyond a reasonable doubt;

d.

to confront and cross-examine witnesses and to call witnesses in his
defense; and

e.

against compelled self-incrimination.

Waiver of Rights and Plea of Guilty: Defendant waives these rights and

pleads guilty to the offense alleged in Count Two of the Information, charging a violation
of 21 U.S.C. § 846, that is, conspiracy to possess of a controlled substance with intent to
distribute. Defendant understands the nature and elements of the crimes to which he is
pleading guilty, and agrees that the factual resume he has signed is true and will be
submitted as evidence.
3.

Sentence: The penalties the Court can impose include:

Plea Agreement - Page 1 of 5

20-10550.308

•

Case 4:19-cr-00362-O Document 244 Filed 01/07/20

•

Page 2 of 5 PageID 366

a.

imprisonment for a period of not more than twenty (20) years;

b.

a fine not to exceed $/,000,000;

c.

a mandatory term of supervised release of not less than three (3)
years, which may be mandatory under the law and will follow any
term of imprisonment. If the defendant violates any condition of the
term of supervised release, the Court may revoke such release term
and require that the defendant serve an additional period of
confinement;

d.

a mandatory special assessment of$100;

e.

restitution to victims or to the community, which may be mandatory
under the law, and which Defendant agrees may include restitution
arising from all relevant conduct, not limited to that arising from the
offense of conviction alone; and

f.

costs of incarceration and supervision.

I

4.

Court's Sentencing Discretion and Role of the Guidelines: Defendant

understands that the sentence in this case will be imposed by the Court after consideration
of the United States Sentencing Guidelines. The guidelines are not binding on the Court,
but are advisory only. Defendant has reviewed the guidelines with his attorney, but
understands no one can predict with certainty the outcome of the Court's consideration of
the guidelines in this case. Defendant will not be allowed to withdraw his plea if his
sentence is higher than expected. Defendant fully understands that the actual sentence
imposed (so long as it is within the statutory maximum) is solely in the Court's
discretion.

Plea Agreement - Page 2 of S

20-10550.309
__j

•

Case 4:19-cr-00362-O Document 244 Filed 01/07/20

•

Page 3 of 5 PageID 367

1!1letk tka axnomtt of !8188.88; irt aatisfaction of the mmtdhtot) special &D81HIIMan* in this
4&0.

5/

Defendant's agreement: Defendant shall give complete and truthful

information and/or testimony concerning his participation in the offense of conviction.
Upon demand, Defendant shall submit a personal financial statement under oath and
submit to interviews by the government and the U.S. Probation Office regarding his
capacity to satisfy any fines or restitution.

0./

Government's Agreement: The government will not bring any additional

charges against Defendant based upon the conduct underlying and related to the
Defendant's plea of guilty. This agreement is limited to the United States Attorney's
Office for the Northern District of Texas and does not bind any other federal, state, or
local prosecuting authorities, nor does it prohibit any civil or administrative proceeding
against Defendant or any property.

1./

Violation of Agreement: Defendant understands that if he violates any

provision of this agreement, or if his guilty plea is vacated or withdrawn, the Government
will be free from any obligations of the agreement and free to prosecute Defendant for all
offenses of which it has knowledge. In such event, Defendant waives any objections
based upon delay in prosecution. If the plea is vacated or withdrawn for any reason other
than a finding that it was involuntary, Defendant waives objection to the use against him
of any information or statements he has provided to Government and any resulting leads.

Plea Agreement - Page 3 of 5

20-10550.310

•

Case 4:19-cr-00362-O Document 244 Filed 01/07/20

•

Page 4 of 5 PageID 368

Voluntary Plea: This plea of guilty is freely and voluntarily made and is
not the result of force or threats, or of promises apart from those set forth in this plea
agreement. There have been no guarantees or promises from anyone as to what sentence
the Court will impose.

I

Wti: or ohi!l'; 11 llf! ool oo

o~ru o: ioo oltoll.,..o oo111oao11 Qolio•liMI

Y:Aiuoc hie rights; conferred h)' ?8 I Is G § ldQ]
WS

?iAviOtiiA

OOMIIRII

QAQ COAtOA£8 8 e fiJrthet wajyes hj5

~

!!33. Bcfendmtt, hoeee:u;

(i) a sentence eyceedjpa the

8ri~

1i I I i G § 171d; ti Appog] from

rjaht tg fpqtest hj§ £9Plli£tjop end

in Ml) tcllateiUl plb!ll.iR@; iRohuliR~ fllinssJiA~Iil HRQOf di !JiG § 22 11 end

z@8l!J.B.@.

••

QAQ

IUiJIP:iJ£

the righ*s (a) tg

hrina adjrect appeal of

stan !lory mwsimum punishment, or (ii) an arithmetic error at

a alai:m of iaeffceti oc asslstmwc of corutsel.
Representation of Counsel: Defendant has thoroughly reviewed all legal

and factual aspects of this case with his lawyer and is fully satisfied with that lawyer's
legal representation. Defendant has received from his lawyer explanations satisfactory to
him concerning each paragraph of this plea agreement, each of his rights affected by this
agreement, and the alternatives available to him other than entering into this agreement.
Because he concedes that he is guilty, and after conferring with his lawyer, Defendant has
concluded that it is in his best interest to enter into this plea agreement, and all of its
terms, rather than to proceed to trial in this case.

Plea Agreement - Page 4 of 5

L~

20-10550.311

__j

•

Case 4:19-cr-00362-O Document 244 Filed 01/07/20

o/-

I

•

Page 5 of 5 PageID 369

Entirety of Agreement: This document is a complete statement of the

parties' agreement and may not be modified unless the modification is in writing and
signed by all parties.
AGREED TO AND SIGNED this

SERGIO AMAYA-MARTINEZ
Defendant

1

day of

~ LN.~019.

Assistant United States Attorney
Texas State Bar No. 24033206
80 1 Cherry Street, Suite 1700
Fort Worth, Texas 76102
T
817.252.5200
F
817.252.5455

Attorney for Defendant
I have read (or had read to me) this Plea Agreement and have carefully reviewed
every part of i with my attorney. I fully understand it and voluntarily agree to it.

17- 0~-

19

Date

I am the defendant's counsel. I have carefully reviewed every part of this Pl
Agreement with the defendant. To my knowledge and belief, my client's decision o
enter into this Plea Agreement is an informed and voluntary one.

Attorney for Defendant

Plea Agreement - Page 5 of 5

20-10550.312

Case 4:19-cr-00362-O Document 515 Filed 06/03/20

Page 1 of 2 PageID 1646

6-A

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FT. WORTH DIVISION
UNITED STATES OF AMERICA
V.
SERGIO AMAYA-MARTINEZ
__________________________________

§
§
§
§
§
§

NO. 4:19-CR-362-0 (15)

DEFENDANT’S NOTICE OF APPEAL
TO THE HONORABLE JUDGE OF SAID COURT:
COMES NOW, SERGIO AMAYA-MARTINEZ, Defendant in the above-styled
and numbered cause, by and through his attorney of record, J. Steven Bush, and files this
notice of appeal from his sentence to the Court of Appeals for the Fifth Circuit.
Signed this 3rd day of June, 2020.

Respectfully submitted,
J. Steven Bush
Attorney at Law
503 Coker Valley Dr.
Kennedale, TX 76060
Tel. 817-878-2770
By: /s/ J. Steven Bush
J. Steven Bush
State Bar No. 03496200
Stiiofanbush@gmail.com
Attorney for Defendant

CERTIFICATE OF SERVICE

NOTICE OF APPEAL

-1-

20-10550.108

Case 4:19-cr-00362-O Document 515 Filed 06/03/20

Page 2 of 2 PageID 1647

I hereby certify that on June 3, 2020 I electronically filed the foregoing document
with the clerk of the court for the U.S. District Court, Northern District of Texas, using
the electronic case filing system of the court. The electronic case filing system sent a
“Notice of Electronic Filing” to the attorney’s of record who have consented in writing to
accept this Notice as service of this document by electronic means.

/s/ J. Steven Bush______________
J. Steven Bush

NOTICE OF APPEAL

-2-

20-10550.109

Case 4:19-cr-00362-O Document 511 Filed 05/29/20

Page 1 of 5 PageID 1635

7-A

United States District Court
Northern District of Texas
Fort Worth Division

UNITED STATES OF AMERICA

'

v.

'

SERGIO AMAYA-MARTINEZ

'

Case Number: 4:19-CR-362-O(15)

JUDGMENT IN A CRIMINAL CASE
The government was represented by Assistant United States Attorney Shawn Smith. The
defendant, SERGIO AMAYA-MARTINEZ, was represented by J. Steven Bush.
The defendant pleaded guilty on January 7, 2020 to count two of the three count
Information filed on December 10, 2019. Accordingly, the court ORDERS that the defendant
be, and is hereby, adjudged guilty of such count involving the following offense:
Title & Section / Nature of Offense
21 U.S.C. § 846 (21 U.S.C. § 841(a)(1) and (b)(1)(C)) Conspiracy to Possess
with Intent to Distribute a Controlled Substance

Date Offense Concluded
September 2019

Count
2

As pronounced and imposed on May 29, 2020, the defendant is sentenced as provided in
this judgment.
The court ORDERS that the defendant immediately pay to the United States, through the
Clerk of this Court, a special assessment of $100.00.
The court further ORDERS that the defendant shall notify the United States Attorney for
this district within 30 days of any change of name, residence address, or mailing address, as set
forth below, until all fines, restitution, costs, and special assessments imposed by this Judgment
are fully paid. If ordered to pay restitution, the defendant shall notify the court, through the clerk
of this court, and the Attorney General, through the United States Attorney for this district, of
any material change in the defendant’s economic circumstances.
IMPRISONMENT
The court further ORDERS that the defendant be, and is hereby, committed to the
custody of the United States Bureau of Prisons to be imprisoned for a term of 168 months
The court recommends to the Bureau of Prisons that defendant serve his period of
imprisonment at a facility within the Northern District of Texas.
The defendant is remanded to the custody of the United States Marshal.
1
20-10550.103

Case 4:19-cr-00362-O Document 511 Filed 05/29/20

Page 2 of 5 PageID 1636

SUPERVISED RELEASE
The court further ORDERS that, upon release from imprisonment, the defendant shall be
on supervised release for a term of three (3) years.
Pursuant to 18 U.S.C. §3583(d), as a condition of supervised release, upon the
completion of the sentence of imprisonment the defendant shall be surrendered by the Federal
Bureau of Prisons to a duly-authorized immigration official for deportation in accordance with
the established procedures provided by the Immigration and Nationality Act, 8 U.S.C. § 1101 et
seq. As a further condition of supervised release, if ordered deported the defendant shall remain
outside the United States.
In the event the defendant is not deported immediately upon release from imprisonment,
or should the defendant ever be within the United States during any portion of the term of
supervised release, the defendant shall comply with the following conditions of supervised
release:
1.

The defendant shall not commit another federal, state, or local crime.

2.

The defendant shall not possess illegal controlled substances.

3.

The defendant shall not possess a firearm, destructive device, or other dangerous
weapons.

4.

The defendant shall cooperate in the collection of DNA as directed by the U.S. Probation
Officer, as authorized by the Justice for All Act of 2004.

5.

The defendant shall report in person to the U.S. Probation Office in the district to which
the defendant is released from the custody of the Federal Bureau of Prisons, or in which
the defendant makes entry into the United States, within 72 hours of release or entry.

6.

The defendant shall not illegally re-enter the United States, if deported, removed, or
allowed voluntary departure.

7.

The defendant must refrain from any unlawful use of a controlled substance. The
defendant must submit to one drug test within 15 days of release from imprisonment and
at least two periodic drug tests thereafter, as determined by the court.

8.

The defendant shall also comply with the Standard Conditions of Supervision as
hereinafter set forth.

Standard Conditions of Supervision
1.

The defendant shall report in person to the probation office in the district to which the
defendant is released within seventy-two (72) hours of release from the custody of the
Bureau of Prisons.

2.

The defendant shall not possess a firearm, destructive device, or other dangerous weapon.
2
20-10550.104

Case 4:19-cr-00362-O Document 511 Filed 05/29/20

Page 3 of 5 PageID 1637

3.

The defendant shall provide to the U.S. Probation Officer any requested financial
information.

4.

The defendant shall not leave the judicial district where the defendant is being supervised
without the permission of the Court or U.S. Probation Officer.

5.

The defendant shall report to the U.S. Probation Officer as directed by the court or U.S.
Probation Officer and shall submit a truthful and complete written report within the first
five (5) days of each month.

6.

The defendant shall answer truthfully all inquiries by the U.S. Probation Officer and
follow the instructions of the U.S. Probation Officer.

7.

The defendant shall support his dependents and meet other family responsibilities.

8.

The defendant shall work regularly at a lawful occupation unless excused by the U.S.
Probation Officer for schooling, training, or other acceptable reasons.

9.

The defendant shall notify the probation officer at least ten (10) days prior to any change
in residence or employment.

10.

The defendant shall refrain from excessive use of alcohol and shall not purchase, possess,
use, distribute, or administer any narcotic or other controlled substance, or any
paraphernalia related to such substances, except as prescribed by a physician.

11.

The defendant shall not frequent places where controlled substances are illegally sold,
used, distributed, or administered.

12.

The defendant shall not associate with any persons engaged in criminal activity, and shall
not associate with any person convicted of a felony unless granted permission to do so by
the U.S. Probation Officer.

13.

The defendant shall permit a probation officer to visit him at any time at home or
elsewhere and shall permit confiscation of any contraband observed in plain view by the
U.S. Probation Officer.

14.

The defendant shall notify the probation officer within seventy-two (72) hours of being
arrested or questioned by a law enforcement officer.

15.

The defendant shall not enter into any agreement to act as an informer or a special agent
of a law enforcement agency without the permission of the court.

16.

As directed by the probation officer, the defendant shall notify third parties of risks that
may be occasioned by the defendant's criminal record or personal history or
characteristics, and shall permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement.

3
20-10550.105

Case 4:19-cr-00362-O Document 511 Filed 05/29/20

Page 4 of 5 PageID 1638

The court hereby directs the probation officer to provide defendant with a written
statement that sets forth all the conditions to which the term of supervised release is subject, as
contemplated and required by 18 U.S.C. § 3583(f).

FINE
The court did not order a fine because the defendant does not have the financial resource
or future earning capacity to pay a fine.

STATEMENT OF REASONS
The “Statement of Reasons” and personal information about the defendant are set forth
on the attachment to this judgment.
Signed this the 29th day of May, 2020.

____________________________________
REED O’CONNOR
UNITED STATES DISTRICT JUDGE

4
20-10550.106

Case 4:19-cr-00362-O Document 307-1 *SEALED*

Filed 03/03/20

Page 7 of 18 PageID 604

8-A

20-10550.320

Case 4:19-cr-00362-O Document 307-1 *SEALED*

Filed 03/03/20

Page 8 of 18 PageID 605

20-10550.321

Case: 20-10550

Document: 00515689779

Page: 12

Date Filed: 12/30/2020

9-A

A variety of factors are relevant to the “mitigating role” determination,
including: “(i) the degree to which the defendant understood the scope and
structure of the criminal activity; (ii) the degree to which the defendant
participated in planning or organizing the criminal activity; (iii) the degree to
which the defendant exercised decision-making authority or influenced the
exercise of decision-making authority; (iv) the nature and extent of the
defendant’s participation in the commission of the criminal activity”; and “(v)
the degree to which the defendant stood to benefit from the criminal activity.”
Id. “[H]ow [the] factors are weighed remains within the sentencing court's
discretion.” United States v. Torres-Hernandez, 843 F.3d 203, 210 (5th Cir.
2016).
Importantly, this Court has held that Section 3B1.2 does not “‘provide
an affirmative right to a § 3B1.2 reduction to every actor but the criminal
mastermind.’” United States v. Castro, 843 F.3d 608, 612 (5th Cir. 2016)
(emphasis in original) (quoting United States v. Gomez–Valle, 828 F.3d 324, 331
(5th Cir. 2016)). “This Court has repeatedly explained that ‘it is improper for a
court to award a § 3B1.2 adjustment simply because a defendant does less than
the other participants.’” Castro, 843 F.3d at 613 (quoting United States v.
Thomas, 932 F.2d 1085, 1092 (5th Cir. 1991)). Rather, “‘the defendant must

8

Case: 20-10550

Document: 00515689779

Page: 15

Date Filed: 12/30/2020

despite the defendant’s argument that he “merely helped others in delivering
methamphetamine” and “did not negotiate or arrange the delivery”); Castro,
843 F.3d at 612 (affirming the denial of a mitigating-role reduction to a drug
courier).
In other words, Amaya has not carried his burden of showing error, let
alone clear error. The fact that he was not “the criminal mastermind” does not
entitle him to a mitigating-role reduction. See Castro, 843 F.3d at 612. Even if
the record supported his claims of being a low-level player who was “d[id] less
than [Dominguez and Martinez],” id. at 613 (internal quotation marks and
citation omitted), this is insufficient to establish error. Amaya has not shown
that he did “enough less” that he was “at best peripheral to the advancement of
the illicit activity.” See id. (internal quotation marks and citation omitted); see
also Fernandez-Guzman, 732 F. App’x at 304. For this reason, his argument
must fail.
Notably, Amaya does not cite any Fifth Circuit authority that supports
his claim of error. He relies on a single case, United States v. Sotelo, 97 F.3d
782, 799 (5th Cir. 1996), for the proposition that he was entitled to at least a
two-point minor-role reduction. (Brief at 20–22.) Amaya makes numerous
comparisons between his own activities and those of Quintana, the defendant
in Sotelo, who received a two-point minor-role reduction. (Brief at 22–23.) As
11

10-A
of the fruits of the crime, the degree of participation in planning or organizing the offense, the
nature and scope of the illegal activity, and the degree of control and authority exercised over
others. There can, of course, be more than one person who qualifies as a leader or organizer
of a criminal association or conspiracy. This adjustment does not apply to a defendant who
merely suggests committing the offense.
Background: This section provides a range of adjustments to increase the offense level based upon
the size of a criminal organization (Le^ the number of participants in the offense) and the degree to
which the defendant was responsible for committing the offense. This adjustment is included
primarily because of concerns about relative responsibility. However, it is also likely that persons
who exercise a supervisory or managerial role in the commission of an offense tend to profit more
from it and present a greater danger to the public and/or are more likely to recidivate. The
Commission's intent is that this adjustment should increase with both the size of the organization and
the degree of the defendant's responsibility.
In relatively small criminal enterprises that are not otherwise to be considered as extensive in
scope or in planning or preparation, the distinction between organization and leadership, and that
of management or supervision, is of less significance than in larger enterprises that tend to have
clearly delineated divisions of responsibility. This is reflected in the inclusiveness of §3Bl.l(c).
Historical Note: Effective November 1, 1987. Amended effective November 1, 1991 (see Appendix C, amendment 414).

§3B1.2.

Mitigating Role
Based on the defendant's role in the offense, decrease the offense level as follows:
(a)

If the defendant was a minimal participant in any criminal activity, decrease
by 4 levels.

(b)

If the defendant was a minor participant in any criminal activity, decrease by
2 levels.

In cases falling between (a) and (b), decrease by 3 levels.
Commentary
Application Notes:
1.

Subsection (a) applies to a defendant who plays a minimal role in concerted activity. It is
intended to cover defendants who are plainly among the least culpable of those involved in the
conduct of a group. Under this provision, the defendant's lack of knowledge or understanding
of the scope and structure of the enterprise and of the activities of others is indicative of a role
as minimal participant.

2.

It is intended that the downward adjustment for a minimal participant will be used infrequently.
It would be appropriate, for example, for someone who played no other role in a very large drug
smuggling operation than to offload part of a single marihuana shipment, or in a case where
an individual was recruited as a courier for a single smuggling transaction involving a small
amount of drugs.

240

November 1, 1991

3.

For purposes of§3B1.2(b), a minor participant means any participant who is less culpable than
most other participants, but whose role could not be described as minimal.

Background: This section provides a range of adjustments for a defendant who plays a part in
committing the offense that makes him substantially less culpable than the average participant. The
determination whether to apply subsection (a) or subsection (b), or an intermediate adjustment,
involves a determination that is heavily dependent upon the facts of the particular case.
Historical Note: Effective November 1, 1987.

§3B13.

Abuse of Position of Trust or Use of Special Skill
If the defendant abused a position of public or private trust, or used a special skill,
in a manner that significantly facilitated the commission or concealment of the offense,
increase by 2 levels. This adjustment may not be employed if an abuse of trust or
skill is included in the base offense level or specific offense characteristic. If this
adjustment is based upon an abuse of a position of trust, it may be employed in
addition to an adjustment under §3B1.1 (Aggravating Role); if this adjustment is based
solely on the use of a special skill, it may not be employed in addition to an
adjustment under §3B1.1 (Aggravating Role).

Commentary
Application Notes:
1.

The position of trust must have contributed in some substantial way to facilitating the crime
and not merely have provided an opportunity that could as easily have been afforded to other
persons. This adjustment, for example, would not apply to an embezzlement by an ordinary
bank teller.

2.

"Special skill" refers to a skill not possessed by members of the general public and usually
requiring substantial education, training or licensing. Examples would include pilots, lawyers,
doctors, accountants, chemists, and demolition experts.

Background: This adjustment applies to persons who abuse their positions of trust or their special
skills to facilitate significantly the commission or concealment of a crime. Such persons generally
are viewed as more culpable.
Historical Note: Effective November 1, 1987. Amended effective November 1, 1990 (see Appendix C, amendment 346).

§3B1.4.

In any other case, no adjustment is made for role in the offense.
Commentary

Many offenses are committed by a single individual or by individuals of roughly equal
culpability so that none of them will receive an adjustment under this Part. In addition, some
participants in a criminal organization may receive increases under §3B1.1 (Aggravating Role) while
241

November 1, 1991

11-A

§3B1.2

4.

In distinguishing a leadership and organizational role from one of mere management or supervision, titles such as “kingpin” or “boss” are not controlling. Factors the court should consider
include the exercise of decision making authority, the nature of participation in the commission
of the offense, the recruitment of accomplices, the claimed right to a larger share of the fruits of
the crime, the degree of participation in planning or organizing the offense, the nature and scope
of the illegal activity, and the degree of control and authority exercised over others. There can,
of course, be more than one person who qualifies as a leader or organizer of a criminal association
or conspiracy. This adjustment does not apply to a defendant who merely suggests committing
the offense.

Background: This section provides a range of adjustments to increase the offense level based upon
the size of a criminal organization (i.e., the number of participants in the offense) and the degree to
which the defendant was responsible for committing the offense. This adjustment is included primarily
because of concerns about relative responsibility. However, it is also likely that persons who exercise
a supervisory or managerial role in the commission of an offense tend to profit more from it and present
a greater danger to the public and/or are more likely to recidivate. The Commission’s intent is that
this adjustment should increase with both the size of the organization and the degree of the defendant’s responsibility.
In relatively small criminal enterprises that are not otherwise to be considered as extensive in
scope or in planning or preparation, the distinction between organization and leadership, and that of
management or supervision, is of less significance than in larger enterprises that tend to have clearly
delineated divisions of responsibility. This is reflected in the inclusiveness of §3B1.1(c).
Historical
Note

Effective November 1, 1987. Amended effective November 1, 1991 (amendment 414); November 1, 1993
(amendment 500).

§3B1.2. Mitigating Role
Based on the defendant’s role in the offense, decrease the offense level as follows:
(a) If the defendant was a minimal participant in any criminal activity, decrease by 4 levels.
(b) If the defendant was a minor participant in any criminal activity, decrease
by 2 levels.
In cases falling between (a) and (b), decrease by 3 levels.
Application Notes:

Commentary

1.

Definition.—For purposes of this guideline, “participant” has the meaning given that term in
Application Note 1 of §3B1.1 (Aggravating Role).

2.

Requirement of Multiple Participants.—This guideline is not applicable unless more than
one participant was involved in the offense. See the Introductory Commentary to this Part (Role

352 ║ Guidelines Manual (November 1, 2018)

§3B1.2
in the Offense). Accordingly, an adjustment under this guideline may not apply to a defendant
who is the only defendant convicted of an offense unless that offense involved other participants
in addition to the defendant and the defendant otherwise qualifies for such an adjustment.
3.

Applicability of Adjustment.—
(A)

Substantially Less Culpable than Average Participant.—This section provides a
range of adjustments for a defendant who plays a part in committing the offense that makes
him substantially less culpable than the average participant in the criminal activity.
A defendant who is accountable under §1B1.3 (Relevant Conduct) only for the conduct in
which the defendant personally was involved and who performs a limited function in the
criminal activity may receive an adjustment under this guideline. For example, a defendant
who is convicted of a drug trafficking offense, whose participation in that offense was limited to transporting or storing drugs and who is accountable under §1B1.3 only for the
quantity of drugs the defendant personally transported or stored may receive an adjustment under this guideline.
Likewise, a defendant who is accountable under §1B1.3 for a loss amount under §2B1.1
(Theft, Property Destruction, and Fraud) that greatly exceeds the defendant’s personal gain
from a fraud offense or who had limited knowledge of the scope of the scheme may receive
an adjustment under this guideline. For example, a defendant in a health care fraud
scheme, whose participation in the scheme was limited to serving as a nominee owner and
who received little personal gain relative to the loss amount, may receive an adjustment
under this guideline.

(B)

Conviction of Significantly Less Serious Offense.—If a defendant has received a lower
offense level by virtue of being convicted of an offense significantly less serious than warranted by his actual criminal conduct, a reduction for a mitigating role under this section
ordinarily is not warranted because such defendant is not substantially less culpable than
a defendant whose only conduct involved the less serious offense. For example, if a defendant whose actual conduct involved a minimal role in the distribution of 25 grams of cocaine
(an offense having a Chapter Two offense level of level 12 under §2D1.1 (Unlawful Manufacturing, Importing, Exporting, or Trafficking (Including Possession with Intent to Commit These Offenses); Attempt or Conspiracy)) is convicted of simple possession of cocaine
(an offense having a Chapter Two offense level of level 6 under §2D2.1 (Unlawful Possession; Attempt or Conspiracy)), no reduction for a mitigating role is warranted because the
defendant is not substantially less culpable than a defendant whose only conduct involved
the simple possession of cocaine.

(C)

Fact-Based Determination.—The determination whether to apply subsection (a) or subsection (b), or an intermediate adjustment, is based on the totality of the circumstances and
involves a determination that is heavily dependent upon the facts of the particular case.
In determining whether to apply subsection (a) or (b), or an intermediate adjustment, the
court should consider the following non-exhaustive list of factors:
(i)

the degree to which the defendant understood the scope and structure of the criminal
activity;

(ii)

the degree to which the defendant participated in planning or organizing the criminal
activity;

Guidelines Manual (November 1, 2018) ║ 353

§3B1.3
(iii) the degree to which the defendant exercised decision-making authority or influenced
the exercise of decision-making authority;
(iv)

the nature and extent of the defendant’s participation in the commission of the criminal activity, including the acts the defendant performed and the responsibility and
discretion the defendant had in performing those acts;

(v)

the degree to which the defendant stood to benefit from the criminal activity.

For example, a defendant who does not have a proprietary interest in the criminal activity
and who is simply being paid to perform certain tasks should be considered for an adjustment under this guideline.
The fact that a defendant performs an essential or indispensable role in the criminal activity is not determinative. Such a defendant may receive an adjustment under this guideline
if he or she is substantially less culpable than the average participant in the criminal activity.
4.

Minimal Participant.—Subsection (a) applies to a defendant described in Application
Note 3(A) who plays a minimal role in the criminal activity. It is intended to cover defendants
who are plainly among the least culpable of those involved in the conduct of a group. Under this
provision, the defendant’s lack of knowledge or understanding of the scope and structure of the
enterprise and of the activities of others is indicative of a role as minimal participant.

5.

Minor Participant.—Subsection (b) applies to a defendant described in Application Note 3(A)
who is less culpable than most other participants in the criminal activity, but whose role could
not be described as minimal.

6.

Application of Role Adjustment in Certain Drug Cases.—In a case in which the court applied §2D1.1 and the defendant’s base offense level under that guideline was reduced by operation of the maximum base offense level in §2D1.1(a)(5), the court also shall apply the appropriate
adjustment under this guideline.
Historical
Note

Effective November 1, 1987. Amended effective November 1, 1992 (amendment 456); November 1, 2001
(amendment 635); November 1, 2002 (amendment 640); November 1, 2009 (amendment 737); November 1,
2011 (amendments 749 and 755); November 1, 2014 (amendment 782); November 1, 2015 (amendment 794).

§3B1.3. Abuse of Position of Trust or Use of Special Skill
If the defendant abused a position of public or private trust, or used a special
skill, in a manner that significantly facilitated the commission or concealment
of the offense, increase by 2 levels. This adjustment may not be employed if an
abuse of trust or skill is included in the base offense level or specific offense
characteristic. If this adjustment is based upon an abuse of a position of trust,
it may be employed in addition to an adjustment under §3B1.1 (Aggravating
Role); if this adjustment is based solely on the use of a special skill, it may not
be employed in addition to an adjustment under §3B1.1 (Aggravating Role).

354 ║ Guidelines Manual (November 1, 2018)

